                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 1-12100067                                                                    Page 1 of 1



          We received an allegation that a company 1 submitted a proposal that was substantially similar to
          a previously-awarded proposal submitted by a different company?

          The company that submitted the original (funded) proposal modified its project focus and work
          plan following the departure of two team members (who became associated with the company
          that submitted the questioned proposal). This resolved the concerns about funding duplicate
          work. 3

          This case is closed with no further action taken.




NSF OIG Form 2 (11 /02)
